■*9t

Supreme Court Of The United States
Case No. 20-7117
Dervanna H. A. Troy-McKoy, Petitioner, Pro' Se
V.
Mount Sinai Beth Israel, Respondent

Petitioner's Response to Respondent Brief In Opposition

Dervanna H. A. Troy-McKoy, Petitioner
6505 Winfield Blvd., Apt Bll
Margate, Florida 33063
954-661-7110
Galaxy-gst@msn.com
Rubin, Fiorella, Friedman & Mercante LLP
630 Third avenue, Third Floor
New York, New York 10017
212-953-2381
mjewels@rubinfiorella.com
i
(<=>

Respondent left an overnight deliver at Petitioner's door on March 17,
2021 (page 4 & 5).
An Order of March 19, 2020 (pages 6 & 7), indicate that Petitioner's
petition for Writ of Certiorari was timely file.
Since Respondent was relying on Jurisdiction, page 8 (page 1 of
Respondent Brief) that Petitioner's Writ of Certiorari's was untimely
filed, it is now clear that Petitioner's Writ of Certiorari was timely file
and therefore, should be reviewed.
Further, Respondent claimed they did a docket search on Petitioner's,
page 9 (page 7 of Respondent's brief), but failed miserably to discover
the Order of March 19 2020 (Court Order list: 589 U.S). Similarly,
Respondent failed to recognize and admit that Petitioner filed all his
motions timely, leading up to this case No. 20-7117.
Therefore, Petitioner wishes to ignite a reciprocal contention of
Respondent's conclusion page 10 (page 15 of Respondent Brief):

2

Petitioner's conclusion;
For the foregoing reasons, and any other reasons that seem just and
proper to this Court, the petition for writ of certiorari should be
reviewed.

3

